Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Juvenile Justice and Delinquency Prevention National Delinquency Prevention Education Project Grant Awarded to the Constitutional Rights Foundation Grant Number 2001-JS-FX-0008 
Los Angeles, California

Report No. GR-90-04-002 


December 2003
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the National Delinquency Prevention Education Project grant awarded by the U.S. Department of Justice, Office of Juvenile Justice and Delinquency Prevention (OJJDP) to the Constitutional Rights Foundation (CRF) located in Los Angeles, California. The purpose of this grant was to teach young people about the law so that they can lead successful lives within the confines of the law. As of July 10, 2002, the CRF was awarded a total of $1,066,400 to strengthen successful models in 49 states, the District of Columbia, and Puerto Rico, that link the Law Related Education (LRE) with violence prevention.
We tested the CRF's accounting records to determine if reimbursements claimed for costs under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.
We found the CRF to be in compliance with OJJPD's grant requirements. Our audit revealed that adequate controls were taken over the accounting process and records relating to the grant. We determined that costs claimed for reimbursement were allowable, supported and in accordance with applicable laws, regulations, guidelines and terms and conditions of the grant.
Our audit objectives, scope, and methodology appear in Appendix I.